                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

CaseNumber: A04050040                                                                         Page 1 of 1



         While reviewing documents in our office, we found two NSF Small Business Innovation
         Research Phase 1 proposals' submitted by the subject2that contained plagiarized text and figures
         from multiple source documents. We conducted an investigation and recommended that NSF's
         Deputy Director send the subject a letter of reprimand informing him that NSF has made a
         finding of research misconduct against him; require the subject to certify proposals submitted by
         him, or on his behalf to NSF for the next 3 years, be certified to OIG that, to the best of his
         knowledge, they contain nothing that violates NSF's Research Misconduct regulation; and
         require the subject attend a course in research ethics within one year of the final disposition of
         the case. NSF's adjudicator sent the subject a letter of reprimand, required the subject to certify
         to OIG for 3 years that submitted NSF proposals on which he is the PI or co-PI contain no
         plagiarized, fabricated, or falsified information, and required the subject to certify in writing to
         OIG within one year that he completed an ethics training course on plagiarism. The attached
         report of investigation and the Deputy Director's letter to the subject detail NSF's actions
         regarding this matter.

          This case is closed and no further action will be taken.




NSF OIG Form 2 ( 1 1102)
                                 N A ~ O N ASCENCE
                                            L      FOUNDATION
                                      4201 WILSON BOULEVARD
                                     ARLINGTON, VIRGINIA 22230




    OFFICE OF THE
   DEPUTY DIRECTOR




CERTIFIED MAIL --RETURNRECEIPT REQUESTED




       Re: Notice of Misconduct in Science Deterntination




        On or about January 20,2004, you submitted three proposals to the National Science



                                                                                    .   .

contaiied text and graphical figures that were plagi&zed.

Scientific Misconduct and Proposed Sanctions

         Under NSF's regulations, "research misconduct" is defined as "fabrication, falsification,
o r plagiarism in proposing or performing research funded by NSF . . ." 45 CFR 5 689.1(a). A
finding of research misconducf requires that:

       (I)     There be a significant departure from accepted practices of the relevant research
               community; and
       (2)     The research misconduct be committed intentionally, or knowingly, or recklessly;
               and
       (3)     The allegation be proven by a preponderance of evidence.

45 CFR $ 689.2(c).

        In your proposal, you misappropriated text and copied graphical images from several
source documents into the proposals without providing proper attribution for such material. By
submitting proposals to NSF that copy the ideas or words of another without adequate
attribution, as described in the OIG Investigative Report, you misrepresented someone else's
                                                                                              Page 2
work as your own. Your conduct unquestionably constitutes plagiarism. I therefore conclude
that your actions meet the definition of "research misconduct" set forth in NSF's regulations.

        Pursuant to NSF regulations, the Foundation must also determine whether to make a
finding of misconduct based on a preponderance of the evidence. 45 CFR $689.2(c). After
 reviewing the Lnvestigative Report, NSF has determined that, based on a preponderance of the
evidence, your misconduct was knowing and constituted a significant departure from accepted
practices of the relevant research community. I am, therefore, issuing a finding of research
misconduct against you.

         NSF's regulations establish three categories of actions (Group I, II, and III) that can be
taken in response to a finding of misconduct. 45 CFR $689.3(a). Group I actions include issuing
a letter of reprimand; conditioning awards on prior approval of particular activities from NSF;
requiring that an institution or individual obtain special prior approval of particular activities
from NSF; and requiring that an institutional representative certify as to the accuracy of reports
or certifications of compliance with particular requirements. 45 CFR $689.3(a)(l). Group II
actions include award suspension or--  restrictions on designated activities or expenditures;
requiring special reviews of requests for funding; and requiring correction to the research record.
45 CFR $689.3(a)(2). Group III actions include suspension or termination of awards;
prohibitions on participation as NSF reviewers, advisors or consultants; and debarment or
suspension from participation in NSF programs. 45 CFR $ 689.3(a)(3).

        In determining the severity of the sanction to impose for research misconduct, I have
                                                                                               .
considered the seriousness of the misconduct; our determination that it was howing; the   '



determination that it was a part of a pattern; your willingness to accept responsibility for your
actions; and the fact that your conduct did not have an impact on the published research record. I
have also considered other relevant circum'stances. 45 CFR $ 689.3 (b).

         In light of the foregoing, I am requiring that, from the date of this letter until May 1,
2009, you certify that any proposals submitted by you to NSF as a principal investigator or co-
principalinvestigator do not contain any plagiarized, fabricated or falsified information. Such
certifications should be sent to the Office of inspector General ("OIG"), 4201 Wilson Boulevard,
Arlington, Virginia 22230. Furthermore, you are required to complete an ethics training course
on plagiarism by June I, 2007. You must certify in writing to the OIG that such training has
been completed.
                                                                                            Page 3
Procedures Governinn Appeals

Under NSF's regulations, you have 30 days after receipt of this letter to submit an appeal of this
decision, in writing, to the Director of the Foundation. 45 CF4X §689.10(a). Any appeal should
b e addressed to the Director at the National Science Foundation, 4201 Wilson Boulevard,
Arlington, Virginia 22230. If we do not receive a response to this notice within the 30-day
period, this decision will become final. For your information we are attaching a copy of the
applicable regulations. If you have ariy questions about the foregoing, please call Eric S . Gold,
Assistant General Counsel, at (703) 292-8060.


                                                     Sincerely,



                                                     Kathie L. Olsen          .   .


                                    -                -
                                                     Deputy-Director


Enclosures
- Investigative Report
- 45 C.F.R. 689
                                                   Summary

The Office of Inspector General (OIG) has concluded the subject,' while employed by a small
business company (the company), plagiarized text and figures fiom multiple source documents
into two Small Business Innovation Research (SBIR) Phase I proposals he submitted to the
National Science Foundation (NSF). We recommend that NSF7sDeputy Director send the
subject a letter of reprimand informing him that NSF has made a finding of research misconduct
against him, and that when proposals are submitted by him or on his behalf to NSF, he be
required to submit a certification to OIG that, to the best of his knowledge, they contain nothing
that violates NSF7sResearch Misconduct regulation. NSF should inform the subject that the
certification requirement is in effect until 3 years have elapsed fiom the final disposition of this
case.

                                                OIG 's Inquiv

OIG reviewed an allegation that the subject, while working at the company, plagiarized material
in several proposals he prepared for submission to NSF by the company. Our initial review
suggested that three of the subject's simultaneously submitted NSF SBIR proposals2 (Tab 1)
appeared to have materials copied (text and figures) from multiple source documents (Tab 2). In
several instances, the appropriate relevant citation for the specific copied text was provided in
the proposals, but often not directly associated with the copied text. However, none of the
allegedly copied text in the subject's proposals were offset or distinguished in any way to enable
the reader to differentiate the apparently copied text fiom the subject's own text. Likewise, none
of the allegedly copied figures (a total of nine in the three proposals) were distinguished in a way
to enable the reader to differentiate the apparently copied figures fiom the subject's own figures
in the proposals.3

On 12 January 2005, we wrote to the subject (Tab 3). The subject responded in a 2 February




                                       -
2005 email (Tab 4). He stated that he "took some information fiom these source^."^ However,
he stated that he "used all the information by citing the s ~ u r c e . " He
                                                                          ~ further explained that he 1)
thought the sources he cited were the original source^;^ 2) occasionally made a few errors or
"messed         and/or 3) "mentioned" the original source in the text of the proposal for the copied
sections.'

                -
                merly a scientist at                             (the company), is presently employed by   =
 the subiect as the sole PI on


 submitted by the subject as the sole PI on    4 2004.
                                               1-6); one figure in               (E-1); and seven figures in

  Tab 4, page 2, answer 1
  Tab 4, page 2, answer 2
  Tab 4, examples: page 2, answers to A-1 through A-6, page 2, answer to B-1
7
  Tab 4, examples: page 2, answer to 1-1; page 3, answer to D-2
  Tab 4, examples: page 2, answers to J-1, K-1, K-2, K-3, page 3, answers to K-4, L-1, L-2, M-1, N-1, N-2, N-3, C-
   1, D-1, F-1, G-1, G-2, H-1.
 Our review of the subject's response showed that when he "mentioned" the correct citations
 within the text of the proposals, these citations did not always appear to b.e directly associated
 with the copied text9 Further, we noted other inconsistencies in his response.10 The subject did
 clarify the source of figure K-4, a source different from source document K. He explained, and
 we verified, that his citation for the source of this figure was correct. However, as with the other
 allegedly copied figures in these proposals, he did not cite figure K-4 in a way that made it clear
 it was the work of another and not his own work.

 As a result of our inquiry, we determined that there was sufficient substance to proceed to an
 investigation." Because the subject was no longer at the company from which he submitted the
 proposals and because his new employer was also a small SBIR company (see footnote I), we
 elected to do our own investigation. We wrote to the subject on 18 April 2005 informing him
 that we had initiated an investigation (Tab 5).


                                                 OIG 's Investination

 On 21 June 2005, we wrote to the subject with additional questions about these alleged copied
 materials (Tab 6). The subject responded on 12 July 2005 (Tab 7). In the subject's cover letter,
 he stated that he tried to use original sources as his references, a procedure that lead to some
 wrong original source citations. He stated that

          Generally, I always use technical papers as references in the publications on peer
          journals and conference. I didn't use a website as a reference (see some of my
          research articles attached). Secondly, I didn't cite the reference both in the text
          and figures. This leads to some text or figures without reference. I didn't realize
          this was an improper manner that time. Thirdly, there are a few of wrong
          citations caused by inis-labeling or a typographical error. Almost all the
          suspected citations are coming from these manners. I would say that if this was
          going to be a published paper, I would have taken care to reference the paper.
          And if I publish a technical paper I will have a chance to correct my references
          before it is open to public because the reviewers will point it out to be corrected.


  ~ x a m ~ l of




   document E),   ,
                              (Proposal ,


                                              was at .
                                                                                                      -
              e sinstances when subject's citation does not appear precisely with the copied materials: D-1, F-1, G-2,
  J-1, K1, K-2, K-3, L-1, and L-2.
'O Examples: 1) the source cited by the subject for figures N-1, N-2, and N-3 did not contain these figures; 2) the text
  for M-1 cited by the subject was not in his citation list; 3) the subject did not cite any source for figure E-1 and text
  E-2. He explained the-work as shown by E-1 and E-2 was accomplished by the company. He stated that he

 g"
  mentioned in the be inning of the proposal that "[alt [the company], we have developed a novel
                                                         page I). The subject said that scientists who worked for the
  company published the work with the figures (E-1) and the text (E-2). This statement is, however, not entirely
   correct. The primary author of source document E was not affiliated with the company. The primary author (sourck
                 I
  worked for the company at the time source document E was published.
                                                                                       Only the second and third authors

":
   of text and one figure appeared to have been copied.
  have been copied.
                                                         h:
                      about 9 lines of text and one figure a eared to have been copied. :                    about 31 lines
                                                                           about 12 lines of text and 7 figures appeared to
            In my mind, the purpose of a proposal is to convey a new idea to a reviewer. It is
            not an open document and so it cannot be held to the same standards as a peer
            reviewed scientific article in terms of references. In my understanding proposals
            and papers do not fall in the same category of scholarship. The most sacred thing
            in a technical proposal is the idea that is put forth. I didn't steal any idea fkom
            any others. I reinstate that it is not acceptable practice to copy other materials
            directly to the proposal or any publication without citations. In my proposals, I
            tried to cite all the sources as accurate as possible. For example, I tried to found
            an original source rather than a website to be the reference. But this manner leads
            to some improper citations. I never tried to avoid any citation. [ I 2 ]

     In the subject's response, he provides several different explanations for the lack of accurate
     citation. Some examples of his explanations for the copied text include:

        1. With respect to the copied text in C-1, he states that he "did not put the text taken
           from a specific reference in quotes since it usually makes reading a proposal
           diffi~ult."'~
        2. With respect to the copied text in D-1, the subject explains, "[tlhe sentence in the
           proposal is a factual statement, and therefore did not feel the need to change the
           language. I agree that the reference number 3 was misplaced, but it was a
           typographical error."14
        3. With respect to the copied text D-2, he states, " [tlhe name of the authors . . . was
           mentioned, but just the number [citation] was typed wrong," and "[tlhere is
           usually not any better way to re-state one single sentence that an author has
           written in a paper. Any other way of re-writing one sentence that describes a test
           result is almost sure to not be the best way to portray the result. I would like to
           reiterate that there was no intention to distort the truth."I5
        4. With respect to the copied text associated with F-1. G-1. G-2, and H-1, the subject
           explains, "[tlhis section describes the coinmercial potential of the technology area
           that the proposal idea addressed. Since I am not an expert in this particular
           market (from a business perspective) I felt that I would simply distort the
           information if I tried to rewrite the summary that the three references provided.
           Therefore, I just wrote them as is."I6
        5. With respect to the copied text associated with K-1, K-2, and K-3, the subject
           explains, "I did not cite the reference [6] in the following paragraph to avoid
           repeating citation. I did not realize that this was improper. I NEVER did it on

        6. With respect to the copied text with M-1, the subject agrees that his reference was
           cited "by error."18


12
    Subject's 12 July 2005 response, cover letter
l3  Tab 7, page 2 of detailed response
14
    Tab 7, page 2 of detailed response
I S Tab 7, page 2 of detailed response
16
    Tab 7, page 3 of detailed response
l 7 Tab 7, page 3 of detailed response
    Tab 7, page 4 of detailed response
 With respect to the alleged copied figures, the subject states that he was not aware that he needed
 to cite the reference in the figure captions and the text. Although in many instances the subject
 included the appropriate citation for the figures within the correlated text of the proposals, this
 approach made it unclear to the reader that he had copied these figures. He said he would correct
 this with his future work.I9

    However, with respect to figure E-1, the subject continues to claim that this was work done by
    employees of the company and he

            did not feel that a reference needed to be given, since the proposal clearly
            mentions that the work was carried out at [the company]. I would say that if this
            was going to be a published paper, I would have taken care to reference the paper
            [see footnote 10, E-1 discussion]. In my mind, the purpose of a proposal is to
            convey a new idea to a reviewer. It is not an open document and so it cannot be
            held to the same standards as a peer reviewed scientific article in terms of
            references. Instances of mis-labeling references such is the case here, are more
            often than not brought to the attention of the author by the reviewers of the
            papers. A second chance is always given to the author to correct mis-labeled
            reference^.^'
                            Subject's Response to OIG's Draft Investi~ationReport

 We sent a draft copy of OIG's Investigation Report to the subject for comment. On 24 October
 2005, the subject responded (Tab 8) that he was not the author of one of the three NSF
 proposa~s.2'

            I did not write this proposal, although I was the PI. I have no clue on alleged text or
            Figure of Annotated C- 1, D- 1, E- 1, E-2, F- 1, G- 1, G-2 and H- 1. All the previous
            responses were written by [the company], not me. I asked [the company] to write
            more explanation again and they agreed, but I did not get it by the time I sent
            (October 24, 2 0 0 5 ) . ~ ~

    The above statement was inconsistent with the subject's earlier responses about the second proposal
    (Tabs 4 and 7). However, in these earlier responses, he did not specify that someone else wrote the
    second proposal. As a result of the subject's claim that he was not the author of the second
    proposal, we wrote to h m for further clarification (Tab 9).

     The subject responded on 18 November 2005 (Tab 10). He provided a copy of an email he
     claimed he received from the company with the answers to the questions about the second




''Tab 7, pages 3 and 4 of detailed response including K-4, L-1, L-2, N-1, N-2, and N-3
20
"  Declined proposal
22 Tab 8, page 3.
                     4,
   Tab 7, page 2 of detailed res onse.
                                      entitled ''1
proposal, answers that he said he used.23 In addition, the subject provided the name of the CEO
at the company, requesting that we contact him about this matter.

We wrote to the C E O (Tab~ ~ 1I). The CEO responded on 8 December 2005 (Tab 12). He stated
that the subject did not write the second proposal. He provided the name of the individual
(actual author)25who wrote the second proposal. He explained that the company had determined
that the subject, who was an employee of the company at the time, would be the best person to
be the PI on the second proposal, not the actual author. The CEO acknowledged that the subject
requested his assistance in answering OIGYsquestions about the second proposal. He explained
that the actual author of the second proposal provided the written answers to the questions and he
(the CEO) acted as an intermediary, editing the text of the answers and forwarding them to the
subject.

OIG determined that the second proposal with 3 1 lines of copied text and 1-copied figure would
be excluded fiom the assessment of this matter.26 The remaining two proposals,'however,
included a total of about 43 lines of copied text and 7-copied figures. Our assessment was
modified to reflect these new facts.

                                                 OIG 's Assessment

NSF's Research Misconduct Regulation states that a finding of misconduct requires:

           (1) There be a significant departure from accepted practices of the relevant research
           community; and (2) The research misconduct be committed intentionally, or
           knowingly, or recklessly; and (3) the allegation be proven by a preponderance of
           the evidence.[271


                                                       THEACT
The subject admits that he copied these material^.'^ He states that, other than when he used the
wrong citations because of errors or mistakes, he believes he cited everything appropriately. He
did not see any need to quote or otherwise distinguish text and figures copied fiom other sources
into his proposals. Further, he considers proposals to be avenues for presenting ideas and not

23    The subject admits he copied responses to the questions we asked him, about the second proposal, without stating
     that another individual wrote the responses. Without this information, we naturally assumed these were the



26
   We excluded the second proposal in our evaluation of this matter because the subject was not the author. We
  have opened an inquiry into the apparently copied material in the second proposal.
27 45 CFR $ 689.2(c).
28 The subject accepted responsibility for the authorship of two of the three proposals (                  and
  )         . We note that the subject's July 12, 2005, response (Tab 8) contained text copied from the company
  email (Tab 10) as his answers to our questions about the second proposal (                 , which he now claims he
  did not write). His cover letter for his July 12, 2005, response also included text copied from the company email,
  although reorganized. The subject has not disavowed his response in h s cover letter. Because he signed the
  cover letter, we must assume that, although he copied text and ideas from the company email, he acceptedladopted
  these words and ideas as his own as well.
scholarly works at the level of technical papers, conference papers, and other published papers.
This is in stark contrast to NSF guidance:

           NSF expects strict adherence to the rules of proper scholarship and attribution.
           The responsibility for proper attribution and citation rests with authors of a
           proposal; all parts of the proposal should be prepared with equal care for this
           concern. Serious failure to adhere to such standards can result in findings of
           research misconduct. NSF policies and rules on misconduct in science and
           engineering are discussed in Grant Policy Manual (GPM) Section 930 as well as
           in 45 CFR Part 689. (GPG section I.B.(10/2003)).

His a t t i t ~ d e places
                    *~     the responsibility on reviewers to catch many of the citation errors so the
author(s) can correct these prior to publication. It presupposes that the reviewers will know when
figures and text have been copied without appropriate citation and removes the responsibility
from the author(s) of the proposals and papers to do careful scholarly work in the first place.

The subject displays a surprising lack of understanding of the scholarly standards expected by
the scientific community for appropriately citing the work of others. The subject completed his
PhD and post-doctoral work at distinguished U.S. instit~tion.~'Therefore, we dismiss any notion
that he was not aware of the scholarly standards that are basic to the U.S. research communities.

The subject claims he did not steal ideas. However, by improperly citing text and figures within
his proposals, he fails to acknowledge the effort of others includes the text development and the
figure production. Further, he thinks that quotes interfere with the reading of a proposal. He
does not understand that placing a reference in a proposal is not sufficient when copying text and
figures from another source. By not appropriately citing verbatim text and figures, by placing
the reference at the end of a quoted passage without distinguishing the quoted text, by placing
the reference in the text of the proposal but not specifically associated with the copied text of
figure, by failing to provide the correct citation, or by failing to provide any citation at all, the
subject is presenting these copied items as his own work.



By his own admission, the subject acknowledged that he copied text and figures without
appropriate citations into his proposals. The fact that he copied numerous figures into his
proposals makes it impossible to conclude that the subject acted in anything less than a knowing
manner. Therefore, we conclude that the subject acted knowingly when he copied text and
figures into his proposals.

                                           STANDARD
                                                  OF PROOF




     -
We believe the preponderance of the evidence indicates that the subject copied text and figures
into his proposals without appropriately distinguishing these froin his own work. In doing so, the

'"ee
30
          footnote 27.
       Subject completed his PhD work at                 and conducted his post-doctoral work at   =
subject significantly departed fiom the accepted practice of the scientific community. Since the
preponderance of evidence supports the conclusion that the subject acted knowingly when he
copied these materials, we conclude the subject committed plagiarism and therefore committed
Research Misconduct.


                                      OIG 's Recommended Disposition

In deciding what actions are .appropriate when making a finding of research misconduct, NSF
must consider several factors. These factors include how serious the misconduct was; whether it
was an isolated event or part of a pattern; its impact on the research record; and other relevant
circumstances. 3 1

                                                    Seriousness

As we noted above, we concluded the preponderance of evidence supports the conclusion that
the subject acted knowingly when he plagiarized materials into his proposals, a significant
departure fiom the accepted practice in the scientific community. Plagiarism strikes at the heart
of scientific integrity and is an unacceptable practice within the scientific community. Although
the amount of plagiarized text was modest, the number of copied figures was excessive.
Therefore, we believe the level of misconduct was serious.

                                                      Pattern

The subject's proposal submission history indicates that he simultaneously submitted four
proposals to NSF in 2004. These four proposals were the only proposal submissions by the
subject to NSF. However, two of these proposals were found to contain copied text and
figures.12 This suggests that the subject's actions were a part of a pattern. The fact that the
subject claims that he was unaware of any requirement to reference quote the text or reference
the figures suggests that he would continue this pattern in future proposals had this matter not
been brought to our attention.

                                        Impact on the research record

There was no apparent impact on the research record as a result of the subject's actions.


                                                Recommendations

We recommend that NSF take the following actions as a final disposition in this case to protect
the interest of the Government:



3'45 CFR 9: 689.3(b).
32AS part of the investigation, three of the four proposals were found to have copied text, but, following the
subject's review of the draft investigation report, he claimed he was not the author of one of these proposals (see
footnotes 25 and 27).
        1. Issue a letter of reprimand informing the Subject that NSF has made a finding of research
           misconduct against him.33

        2. For a period of 3 years from the date of the final disposition of this case, when the subject
           is a principal investigator or co-principal investigator on a proposal submitted to NSF for
           funding, the subject will certify in writing that he has recently reviewed NSF's Research
           Misconduct regulation (45 C.F.R. $689)' and that the grant application is free of any
           misconduct.34

        3. Direct the subject to attend a course in research ethics within one year of the final
           disposition of the case.

 The subject's certifications and proof of an ethics course should be sent to the Associate
 Inspector General for Investigations for retention in OIG's confidential file on this matter.




33   A letter of reprimand is a Group I action.
34
     Assurance of compliance is a Group I action.
